WAIVER

SUPREME COURT OF THE UNITED STATES
No. 21-113
UJ-Eighty Corporation, Petitioner,
¥.
City of Bloomington, Indiana Board of Zoning Appeals, Respondent.

IDO NOT INTEND TO FILE A RESPONSE to the petition for writ of certiorari
unless one is requested by the Court.

Please enter my appearance as Counsel of Record for Respondent City of
Bloomington Board of Zoning Appeals.

I certify that I gm a member of the Ray of the Supreme Court of the United States.

x

 

Signature:
Date: August 11, 2021
Name: Philippa M. Guthrie

Corporation Counsel

City of Bloomington, Indiana
401 N. Morton St., Ste. 220
Bloomington, IN 47404

(812) 349-3426
guthriep@bloomington.in.gov

A copy of this form as been served to the following individuals electronically via
email with their consent:

Mr. Robert Stanton Jones

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave., NW
Washington, DC 20001
Stanton.Jones@arnoldporter.com
